Office of Inspector Geeneral

January 6, 2012

MEMORA
     ANDUM

TO:       	          John Peevey, Dire
                                     ector
                     Office
                          e of Managem
                                     ment Services

                     Dana Mansuri, Miission Directtor

                     USAID
                         D/Nigeria 


                     Richard Greene, Mission Dire
                                                ector

                     USAIDD/Bangladessh 


                     Diana
                         a Putman, Mission Directtor

                     USAID
                         D/Democratic Republic of Congo 


                     Glenn
                         n Anders, Mission Directtor

                     USAID
                         D/Indonesia


FROM: 	              Joy Kadnar, Direc
                                     ctor /s/
                     Inspec
                          ctions and Evaluations Division, Offfice of Audit

SUBJEC
     CT: 	           Review of Whethe                      e Making Du
                                    er Selected Missions Are         uplicate Travvel
                     Reimbbursements (Report No. 2-000-12-0
                                                          003-S)

This memorandum transmits our final rep     port on the subject revview. We considered your
comments on the dra              ng the report and have included you
                  aft in finalizin                                 ur responsess in Appendix II.

Althoughh not an audit report, this
                                  s report contains six reccommendations: three to o USAID/Nig geria,
USAID/BBangladesh, and USAID    D/Democratic c Republic o f Congo’s Mission Dire   ectors; two to the
Director of the Office
                     e of Management Serv    vices; and on ne to USAID D/Nigeria’s Mission Direector.
None wa as directed to
                     o USAID/Ind  donesia. Too reduce the e likelihood of duplicate payments, these
recomme endations reequire exclusive use off the E2 Solutions Travvel System (E2) and prrompt
needed E2 training.

Based on our evaluation of managemen     nt commentts, management decisions have been
reached on Recomm  mendations 2, 3, and 4,, and final a ction taken on Recomm
                                                                            mendations 1, 5,
and 6. Please provide the Audit Performan nce and Compliance Division with evidence off final
action to close Recommendation
                             ns 2, 3, and 4.

Thank yo
       ou for the co           nd courtesy extended du
                   ooperation an                     uring this revview.

U.S. Agency for International Development
                              D
1300 Pennsyylvania Avenue, NW  W
Washington, DC 20523
www.usaid.gov/oig
SUMMARY 

USAID direct-hire employees travel for work purposes. Such temporary duty (TDY) travel must
be authorized and to obtain reimbursement and account for costs incurred, travelers must
submit travel vouchers. To process, document, and account for the travel authorization and
payment, travelers and authorizers must use USAID’s automated E2 Solutions Travel System
(E2). E2 is a Web-based application that provides electronic routing, approval, and processing
of travel authorizations and payments.

The Travel and Transportation Division (TTD) of USAID’s Bureau for Management, Office of
Management Services, is responsible for developing and administering travel policy and training
E2 users. Missions worldwide are responsible for creating travel authorizations and processing
and paying travel vouchers in E2.

The objective of the review was to determine whether selected USAID missions are making
duplicate travel reimbursement payments to employees. This review was prompted by a prior
review conducted by the Office of Inspector General (OIG) which revealed indications that
duplicate payments had been made to employees for TDY travel.

Generally, the selected missions—in Nigeria, Bangladesh, Democratic Republic of Congo
(DRC), and Indonesia—are not making duplicate travel reimbursement payments to employees.
At these USAID missions, just one duplicate travel reimbursement payment was made to an
employee between May 2010 and May 2011. However, these four missions are either not using
or not consistently using E2 to create travel authorizations and process vouchers for TDY travel
(page 4). According to TTD, the same is true at other missions not selected for this review.

Inconsistent use of E2 should have stopped worldwide by July 2009, because the Agency had
mandated the exclusive use of E2. Alternative practices can have several negative effects. For
example, manual processing prevents USAID from accurately reporting travel costs and
prevents certifying officers from knowing of all payments involving funds obligated for a trip.

Specifically, the review found:

•	 E2 is not being used exclusively (page 4).

To address this matter, OIG recommends that USAID/Nigeria, USAID/Bangladesh, and
USAID/DRC:

1. 	 Identify their employees’ E2 training needs (page 4).

2. 	 Implement a plan to use E2 exclusively for TDY travel (page 5).

3. 	 Develop and implement a plan to retain E2 expertise when employees leave the mission
     (page 5).

OIG recommends that TTD, within USAID’s Office of Management Services:

4. 	 Respond to the needs identified by the selected missions by providing E2 training to their
     staff members (page 5).

                                                                                              2
5. 	 Identify other missions not using E2, and develop a plan for them to implement exclusive
     use of the system (page 5).

In addition, OIG recommends that USAID/Nigeria:

6. 	 Assess connectivity problems related to the use of E2, and implement a plan to enable E2 to
     become operational (page 5).

Details on review results follow. Appendix I contains a discussion of the review’s scope and
methodology. Our evaluation of management comments is included in the report on page 6,
and the full text of management comments in Appendix II.




                                                                                              3
REVIEW RESULTS
E2 Is Not Being Used Exclusively
Agency Notice 18017 states that the use of E2 is mandatory “for Preparation of Temporary Duty
(TDY) Travel Orders and Vouchers.” The notice reinforces this point by stating that other
mechanisms for preparing travel vouchers against an associated travel authorization may not be
used. In addition, USAID’s Automated Directives System (ADS) 633.3.5, “Travel Voucher
Processing Requirements,” mandates that travelers use E2, where available, to submit travel
vouchers. ADS 630.3.4.3 states that when USAID processes a voucher for payment, the
certifying officer must have complete and current knowledge of all payments involved with the
related obligation. TTD is responsible for developing and administering travel policy and
training E2 users.

However, four USAID missions, USAID/Nigeria, USAID/Bangladesh, USAID/DRC, and
USAID/Indonesia are either not using or not consistently using E2 to create travel authorizations
and process vouchers for TDY travel. Instead of or in addition to using E2, these missions
manually create travel authorizations and manually process travel vouchers. Moreover,
missions not included in the review are not always using E2 as required; TTD provided copies of
manual travel authorizations from other missions that are still not using E2.

This inconsistent use of E2 is occurring because of deficiencies in E2 training and because of
staffing and technical issues. USAID/Nigeria, USAID/Bangladesh, and USAID/DRC report that
they are not using E2 exclusively because some employees have not received training and that
those who have been trained do not fully understand E2. These training deficiencies are
exacerbated by staff turnover and by the missions’ lack of continuity plans to retain E2 expertise
among their staff. Beyond the training issues, USAID/Nigeria stated that poor Internet
connectivity and an increase in Web-based applications have resulted in difficulty using Web-
based applications. A USAID/Indonesia official reported that the mission does not use E2 to
process travel vouchers for travelers with manually produced travel authorizations. She said
that such vouchers are sometimes submitted to USAID/Indonesia by employees visiting from
other missions.

Transactions done outside the system have several adverse consequences.                  Manual
processing prevents certifying officers from having access to all information on payments
related to TDY travel obligations and raises the risk that duplicate payments will be made. For
example, a certifying officer at USAID/Indonesia processing a manually produced voucher
authorized a transaction that led to a duplicate payment of $5,868. Although that payment was
subsequently recovered from the traveler, the incident demonstrates the increased risk of
duplicate payments occurring when relevant payment information exists outside of E2.
Furthermore, such transactions preclude the Agency from accurately reporting all travel data to
the General Services Administration, as required by the Federal Travel Regulation Part 300–70,
Subpart A. Therefore, this review makes the following recommendations.

   Recommendation 1. We recommend that USAID/Nigeria, USAID/Bangladesh, and
   USAID/Democratic Republic of Congo identify their employees’ E2 Solutions Travel
   System training needs in writing.



                                                                                                4
Recommendation 2. We recommend that USAID/Nigeria, USAID/Bangladesh, and
USAID/Democratic Republic of Congo develop and execute plans to implement the
exclusive use of E2 Solutions Travel System for temporary duty travel.

Recommendation 3. We recommend that USAID/Nigeria, USAID/Bangladesh, and
USAID/Democratic Republic of Congo develop and implement a plan to retain E2
Solutions Travel System expertise when employees leave the mission.

Recommendation 4. We recommend that the Travel and Transportation Division
provide and document E2 Solutions Travel System training to staff members at USAID
missions in Nigeria, Bangladesh, and the Democratic Republic of Congo in response to
their identified needs.

Recommendation 5. We recommend that the Travel and Transportation Division
conduct and document an assessment to determine the number of additional missions
currently not using E2 Solutions Travel System and develop a plan for them to
implement exclusive use of the system.

Recommendation 6. We recommend that USAID/Nigeria collaborate with information
technology personnel at the mission or in Washington to assess connectivity problems
related to the use of E2 Solutions Travel System and implement a plan to enable the
system to become operational.




                                                                                       5
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Nigeria, USAID/Bangladesh, USAID/Democratic Republic of Congo, and the Office of
Management Services agreed to take action in response to the recommendations directed to
them. Management presented plans to implement all of the recommendations by September 1,
2012. Based on our evaluation of the comments and plans that management submitted in
response to the draft report, management decisions have been reached on Recommendation 2,
3, and 4, and final action has been taken on Recommendations 1, 5, and 6. Determination of
final action on Recommendations 2, 3, and 4 will be made by the Audit Performance and
Compliance Division on completion of the planned corrective actions.

Recommendation 1. USAID/Nigeria, USAID/Bangladesh, and USAID/Democratic Republic of
Congo agreed with the recommendation. The Office of Management Services has received
requests from all three missions, identifying each mission’s training needs. Final action has
been taken on this recommendation.

Recommendation 2. USAID/Nigeria agreed with the recommendation and plans to ensure that
its entire staff is fully trained on the use of E2. Further, the mission intends to issue a mission
notice prohibiting the use of any instrument other than E2 to create travel authorizations for TDY
travelers. The target date for completion of this recommendation is September 1, 2012.

USAID/Bangladesh agreed with the recommendation and will develop a plan to implement
exclusive use of E2. The target date for completion of this action is March 1, 2012.

USAID/Democratic Republic of Congo agreed with the recommendation and will have tailored
training sessions provided to every mission employee, depending on his or her role in the travel
process. The target date for completion is March 2012.

Recommendation 3. USAID/Nigeria agreed with the recommendation and plans to retain at
least six Foreign Service National E2 subject matter experts to ensure continuity and retention
of E2 expertise. The target date for completion of this recommendation is August 31, 2012.

USAID/Bangladesh agreed with the recommendation and will have its travel coordinator,
supervisory executive specialist, and administrative assistant receive training on E2.
Additionally, the mission has planned to develop written standard operating procedures to
capture key E2 processes. The target date for completion of this recommendation is March 1,
2012.

USAID/Democratic Republic of Congo agreed with the recommendation and will create multiple
“super users” to reinforce information transfer, aid and train new users of E2, and look for
opportunities to provide refresher training to mission staff. The target date for completion of
these actions is March 2012.

Recommendation 4. The Office of Management Services agreed with the recommendation
and plans to provide training to the selected missions—in Nigeria, Bangladesh, and Democratic
Republic of Congo. The target date for completion of this recommendation is March 16, 2012.


                                                                                                 6
Recommendation 5. Office of Management Services agreed with the recommendation,
ascertained the number of missions not using E2, and scheduled training at each. Final action
has been taken on this recommendation.

Recommendation 6. USAID/Nigeria agreed with the recommendation. With the support of the
Chief Information Office, a technical team performed a review of the mission’s information
technology system, including its communications and network infrastructures. The team
recommended improvements to system efficiency, performance, and reliability. Accordingly, the
mission increased its bandwidth from 512 kilobits per second to 4 megabits per second. This
increase will resolve connectivity problems preventing E2 from becoming operational. Final
action has been taken on this recommendation.




                                                                                           7
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
OIG’s Inspections and Evaluations Division conducted this review of E2. This review was
conducted in accordance with the July 2007 revision of the Government Auditing Standards*—
specifically, with the general standards in Chapter 3, the documentation standards in Sections
7.72–7.79, the evidence standard in Section 7.55, and the standards for developing elements of
a finding in Sections 7.72–7.76. Those standards require that we plan and perform the review
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with the review objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of this review was to determine whether selected USAID missions are making
duplicate travel reimbursement payments to employees on TDY travel. We conducted this
review in Washington, D.C., from August 17 to October 6, 2011. The review examined all U.S.
direct hire TDY travel from May 2010 through May 2011 to four missions: Nigeria, Bangladesh,
the Democratic Republic of Congo, and Indonesia. These missions were selected because
during a prior review TTD stated that the missions were not complying with the mandate to use
E2 exclusively. This review focused on the missions’ oversight and verification of travel
vouchers processed manually and electronically through E2.               To obtain a thorough
understanding of how these double payments can be made, the review team interviewed USAID
staff from TTD, the Office of the Chief Financial Officer (CFO), and the Executive Officer’s office
at the selected missions.  
 
Methodology
To answer the review objective, we compared mission-provided and E2 information about
travelers with payment data from the Agency’s accounting system. To accomplish this, we
contacted the four selected missions and obtained information from them about U.S. direct hires
conducting TDY travel to their missions. With this mission-provided information and codes
obtained from the Phoenix financial management system, we used Phoenix viewer to determine
if multiple payments were made to the travelers for their TDY travel. We also consulted E2 to
determine if it had been used for the identified TDY travel and if it had been used to process any
electronic payments. Using data from the missions, E2 and the Agency’s accounting system,
we were able to determine if any duplicate payments had been made.

In addition, we sent questionnaires to the missions regarding their use of E2 and the creation
and processing of manual vouchers to gain a better understanding of why they continue to
create and process vouchers manually.




*
    Government Auditing Standards, GAO 07-731G (July 2007 revision).

                                                                                                 8
                                                                                    Appendix II



MANAGEMENT COMMENTS

Date: 	       Monday, November 28, 2011

MEMORANDUM


To: 	         Joy Kadnar, Director, Inspections and Evaluations Division,
              Office of Audit


FROM:         	Dana Mansuri, Mission Director/s/



SUBJECT: 	    Review of Travel Reimbursements in Selected Missions not using the E2 Systems

USAID/Nigeria appreciates the opportunity to comment on the subject draft report and is pleased
to report the applicable corrective actions to implement the recommendations.

Recommendation No 1: We recommend that USAID/Nigeria, USAID/Bangladesh, and
USAID/DRC identify its employees’ E2 training needs.

Mission Response: Mission accepts the finding and recommendation and supporting
comments.

Corrective Action Already Taken: We have determined that all Mission employees require
E2 training. Mission will work with M/MS/TTD to bring and complete E2 training at Post no
later than August 31, 2012.


Recommendation No 2: We recommend that USAID Nigeria, USAID/Bangladesh, and
USAID/DRC develop and implement plan to implement the exclusive use of E2 for temporary
duty travel

Mission Response: Mission accepts the finding and recommendation and supporting comments.

Corrective Action Already Taken: USAID Nigeria would ensure that its entire staff is fully
trained on the use of E2 no later than August 31, 2012. A Mission Notice would be issued on
September 01, 2012 stating that effective immediately, no parallel instrument will be used to
create travel authorization for TDY travels within the Mission other than the E2 system.

Recommendation No 3: We recommend that the USAID/Nigeria, USAID/Bangladesh, and
USAID/DRC develop and implement a plan to retain E2 expertise when employees leave.


                                                                                                9
                                                                                     Appendix II


Mission Response: Mission accepts the finding and recommendation and supporting
comments.

Corrective Action Already Taken: Upon completion of E2 training in August 31, 2012,
USAID/Nigeria will ensure that there are at least 6 FSN Subject Matter Experts (SMEs) in all
aspects of the E2 system. The Mission prefers to have FSNs as SMEs because they tend to stay
longer at the Mission than Foreign Service Officers. Doing this will ensure continuity and
retention of E2 expertise within the Mission.

 Recommendation No 4: We recommend that USAID Nigeria collaborate with information
technology personnel from the Mission or Washington to assess connectivity issues related to the
use of E2and to implement a plan to enable E2 to become fully operational.

Mission Response: Mission accepts the finding and recommendation and supporting
comments.

Corrective Action Already Taken: The Mission in September 2011 with the support of the
CIO office performed a technical assessment of the Mission’s networking, systems and remote
access to include establishing a functional recovery plan. The team performed an overall review
of the Mission’s Information Technology Systems including communications, network,
infrastructures and made recommendations to improve efficiency, performance, and reliability.
One of the recommendations proffered which was recently implemented is the increase of the
Mission’s bandwidth from 512Kbps to 4Mbps. These assessments and recommendations will
greatly help to address some of the connectivity issues preventing E2 from becoming fully
operational.




                                                                                             10
                                                                                                  Appen
                                                                                                      ndix II




Date:   November 21, 2011 
 
To:     Jooy Kadnar, Director  
        Innspections and Evaluationss Division, Offfice of Audit       
         
From:  Richard Greene, Mission Director /s/ 
        USAID/Banglad   desh 
 
 
This document is in ressponse to a memorandum     m from Joy Kaddnar, Inspecttions and Evaluations Divission, 
Office of Audit, the Offfice of Inspector General on Novemberr 8, 2011.  
 
 
Recomme   endation 1: We recommen     nd that USAIDD/Bangladeshh identify its employees’ E2 training neeeds. 
 
Mission Response:  Mission accepts the finding and recommeendation and        d supporting comments. 
 
Correctivee Action Alreeady Taken:  Mission has id dentified the  following ind
                                                                              dividuals for E2 training: 
             a. Travel Coordinator – hired Nove   ember 6, 20111 
             b. Supervvisory Executive Specialist
             c. Admin  nistrative Assistant – to be hired 
         
 
Recomme   endation 2: We recommen     nd that USAIDD/Bangladeshh develop and  d execute plans to implem   ment 
                       2 for temporary duty trave
the exclussive use of E2                          el. 
 
Mission Response:  Mission accepts the finding and recommeendation and        d supporting comments. 
         
Correctivee Action Alreeady Taken: USAID/Bangladesh developped a plan to fully implement E2 with a 
target datte of March 1, 2012. 
 
 
Recomme   endation 3: We recommen     nd that the USAID/Bangladdesh develop   p and implement a plan to 
retain E2 expertise when employee    es leave. 
 
Mission Response: Mission acceptss the finding and recommeendation and supporting comments. 
         
Correctivee Action Alreeady Taken: USAID/Bangladesh identifieed the individ   duals it will trrain to ensuree 
retention of E2 expertiise – the travel coordinatoor, supervisorry executive specialist, and d administratiive 
assistant. Additionally,, Mission has planned to develop a writtten SOP to caapture key E2    2 processes.
 
 


                                                                                                             11
                                                                                             Appendix II


Recommendation 4: We recommend that M/MS/TTD provide E2 training to USAID/Bangladesh in 
response to their identified needs. 
 
Mission Response:  Mission accepts the finding and recommendation and supporting comments. 
Additionally, Mission is looking into other training options from an experienced E2 user in the region. 
 
Corrective Action Already Taken: Mission contacted M/MS/TTD for E2 training opportunities and 
expects to send its new travel coordinator for E2 training. Mission has also contacted regional missions 
(RDMA, Nepal, India, and Philippines) to find an experienced E2 user to come to Bangladesh on TDY and 
is considering available E2 classes outside Bangladesh. EXO understands that much of this plan, not to 
mention the resulting efficiency gains from the use of E2, is dependent on this critical first stage.  




Clearance: 
 
Dennis Sharma, Deputy Mission Director          _/s/____________________________ 
Marty D. George, Supervisory EXO                _/s/____________________________ 

                                                                                                      12
                                                                                     Appendix II




November 25, 2011


Memorandum


To:      	    Joy Kadnar, Director
              Inspections and Evaluations Division, Office of Audit

Through: 	    Diana Putman, Mission Director /s/
              USAID/Democratic Republic of Congo


From:	        Debbie Jackson, Supervisory Executive Officer /s/
              USAID/Democratic Republic of Congo

Subject: 	    Review of Travel Reimbursements in Selected Missions not using the E2 System
              (Report No. 2-000-12-00X-S)


This memorandum transmits USAID/Democratic Republic of Congo’s (DRC) response to the
three review recommendations related to USAID/DRC detailed in Report No. 2-000-12-00X-S.

Mission Background
USAID/DRC has faced tremendous growth over the last year and a half with a very large influx
of Foreign Service Officers (FSO) via the Development Leadership Initiative (DLI) as well as a
marked increase in the Foreign Service National (FSN) staff. Further, the Mission has been
without an FSO Controller and Supervisory Executive Officer for an extended time and has had
a complete turnover of Front Office Management. The Mission understands the importance of
establishing and maintaining the E2 System as the exclusive method for temporary duty travel
and we have taken steps to get E2 rolled out as quickly as possible as discussed below. Initial
steps included the newly assigned Supervisory Executive Officer conferring with M/MS/TTD,
before coming to post, regarding the state of E2 at the Mission and requesting to have DRC
placed on the training and implementation schedule as soon as possible. Further, a training
schedule and other training-related requirements have been outlined. The Mission has funded
travel authorizations for the E2 trainers and implementers. The originally scheduled training and
implementation date was in December 2011 but had to be postponed until early 2012 due to
elections in the DRC.

We have reviewed the report and agree with all recommendations.




                                                                                              13
                                                                                     Appendix II



Recommendation 1: We recommend that USAID/DRC identify its employees’ E2 training
needs.

The Mission has reviewed the requirements of the E2 system as well as the organizational
structure of the Mission and concluded that everyone will need to be trained, in some manner, if
E2 is to be implemented correctly and work successfully. Every Mission employee will be
trained in one or more of the following areas depending on their role in the travel process:
•	      Arranger – All Administrative staff, multiple individuals in the Executive and Financial
        Management offices, dedicated USAID travel agent as well as three designated Super
        Users.
•	      Traveler – Everyone in the Mission will have this training and we will designate three
        Super Users as well.
•	      Financial Management – Office of Financial Management and two individuals from the
        Executive Office will cover required travel actions and other required documentation.
        Two Super Users from OFM and one from EXO will be designated.
•	      System Administrator Training – Executive Officer and two other mission personnel will
        cover system management issues, password resets, changing routing pools, running
        reports and other system management actions.
•	      All designated Super Users will have additional time with the trainers to ensure all
        questions are answered and processes mastered.

Recommendation 2: We recommend that USAID/DRC develop and execute plans to implement
the exclusive use of E2 for TDY travel.

Training and implementation is scheduled for 23 January – 2 February, 2012. The tentative
training schedule is outlined below:

1. 	   Arranger Training - Two days

2. 	   Traveler Training - Two days - Will cover the same material as above, but this will be the
       shortened version of the training. Each group will receive three hours of training.

3. 	   Financial Management Training – One day - Office of Financial Management and
       Executive Office on financial issues, BTAs and related documentation requirements.

4. 	   System Management Training – One day – Executive Office and other designated
       participants on system management issues, running reports and password resets.

5. 	   Super User Groups – One half day – All Super Users to review processes and answer
       questions.




                                                                                              14
                                                                                     Appendix II


6. 	   Out Brief and After Action Review – One half day – Executive Office, Office of
       Financial Management and Front Office brief on assessment of the success of the training
       and questions.

The Mission will be fully using E2 by the end of March 2012.


Recommendation 3: We recommend that USAID/DRC develop and implement a process to
mitigate the loss of E2 expertise from employee turnover.

As noted in your report USAID/DRC has not implemented E2 to date and therefore does not
currently have system knowledge or expertise in house. However, the Mission will ensure that
knowledge gained from training and implementation of E2 will not be lost through the following
actions:
1. 	    Requiring that everyone in the Mission is trained in various aspects of E2.
2. 	    Creating multiple Super Users in each category to reinforce information transfer and
        aid/train new users.
3. 	    Look for and plan opportunities to piggy back on scheduled regional opportunities for
        refresher training within the Mission as well as have key individuals, new staff assigned
        to post, individuals traveling back to Washington for training, and Washington HR and
        AMS staff coming to the Mission to solicit updated E2 information and processes from
        Travel and Transportation for dissemination to the Mission.




                                                                                              15
                                                                                    Appen
                                                                                        ndix II




Novembe
      er 17, 2011


MEMORA
     ANDUM




TO:         Joy Kad
                  dnar, Directo
                              or
            Inspections and Evaluations Division, Office
                                                       e of Audit

FROM:       John Peeevey, Direc
                              ctor /s/
            Office of
                   o Management Services
                                       s



SUBJEC
     CT: Manageement Comm  ments on the
                                      e Recommen  ndations of the Review of Travel
         Reimbursements in Missions noot using the E2 System
         (Report No. 2-000-1
                           12-00X-S).

This mem
       morandum trransmits Ma anagement Decision, a c orrective acction and targ
                                                                               gets dates of
completio
        on on the be
                   elow subject report recom
                                           mmendation
                                                    ns 4 and 5.

Recomm  mendation 4: We recommmend that M/MS/TTD p rovide E2 trraining to US
                                                                           SAID mission   ns in
Nigeria, Bangladesh and the Dem
                              mocratic Re
                                        epublic of Co
                                                    ongo in respo
                                                                onse to theirr identified
needs.

Recomm mendation 5: We recom  mmend that M/MS/TTD c onduct an assessment to determine    e the
number of additional missions cu
                               urrently not using E2 and
                                                       d develop an
                                                                  nd implemen
                                                                            nt a plan forr
them to become fully
                   y operational with E2.




                                                                                               16
                                                                            Appendix II


Recommendation 4: We recommend that M/MS/TTD provide E2 training to USAID
missions in Nigeria, Bangladesh and the Democratic Republic of Congo in response to
their identified needs.


Management Decision: M/MS/TTD has received request for training for these Missions
and have identified their training needs. M/MS/TTD will provide E2 and E2i training to
Nigeria, Bangladesh and the Democratic Republic of Congo in response to their
identified needs.

Corrective Action: These missions have been added to the training schedule (see
attachment A).

Completion Date: Nigeria Jan 30- Feb 3, Democratic Republic of Congo Feb 20- Feb
24 and Bangladesh Mar 12- Mar 16



Recommendation 5: We recommend that M/MS/TTD conduct an assessment to
determine the number of additional missions currently not using E2 and develop and
implement a plan for them to become fully operational with E2.


Management Decision: M/MS/TTD has ascertained that the following Missions are not
using the E2 travel system at this time (see attachment B). M/MS/TTD has developed
and implemented a training plan. (see attachment A).

Corrective Action: M/MS/TTD has identified Missions that are not using the E2 travel
system and has schedule training.

Completion Date: March 2012 all training completed on E2 and E2i.




                                                                                     17
